NO.

IN THE
SUPREME COURT OF THE UNITED STATES
GEORGE CHARLES CLARK,
Petitioner
v.
CHAMPION NATIONAL SECURITY, INCORPORATED,
Respondent.
On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Fifth Circuit
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
VOL. C
Susan E. Hutchison
Texas State Bar No. 10354100
Counsel of Record for Petitioner
Hutchison & Stoy, PLLC
505 Pecan Street, Suite 101
Fort Worth, Texas 76102
sehservice@hsjustice.com
T: (817) 820-0100
F: (817) 820-0111

TABLE OF CONTENTS
Appendix A Memorandum Order Denying Petition for Panel Rehearing and
Rehearing En Banc in theUnited States Court of Appeals,
Fifth Circuit (Revised March 10, 2020) Clark v. Champion Nat’l Sec.,
Inc., 947 F.3d 275 (5th Cir.), opinion superseded on denial of reh’g, 952
F.3d 570 (5th Cir. 2020)………………………………………………………1a
Appendix B Memorandum Opinion in the United States Court of Appeals, Fifth
Circuit (January 14, 2020) Clark v. Champion Nat’l Sec., Inc., 952 F.3d
570 (5th Cir. 2020)……………………………………………………………37a
Appendix C Memorandum Opinion on Defendant’s Motion for Summary
Judgment in the Northern District of Texas, Dallas Division
(November 18, 2018)………………………………………………………..72a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 602

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
GEORGE CHARLES CLARK,

)
)
Plaintiff,
)
)
v.
)
)
CHAMPION NATIONAL SECURITY, INC., )
)
Defendant.
) Civil Action No. 3: 17-CV-1802-C
ORDER
(November 14, 2018)
On this day, the Court considered:
(1) Defendant Champion National Security, Inc. 's Motion for Summary
Judgment, filed September 11 , 2018; and
(2) Plaintiff George Charles Clark's Response to Defendant's Motion for
Summary Judgment, filed October 2, 2018.
The Court, having considered the foregoing, is of the opinion Defendant's
Motion for Summary Judgment should be GRANTED.
I.
BACKGROUND
On July 10, 2017, George Charles Clark ("Plaintiff') filed the above-styled and
-numbered civil action against Champion National Security, Inc. ("Defendant"),
pursuant to the Americans with Disabilities Act ("ADA") and the Texas Labor Code.

72a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 603

Plaintiff asserts claims alleging disability discrimination, disability harassment,
retaliation, failure to accommodate a disability, and failure to engage in the
interactive process under both the ADA and Texas Labor Code. Plaintiff claims he is
entitled to the recovery of compensatory damages for emotional pain, suffering,
inconvenience, mental anguish, loss of enjoyment of life, and other nonpecuniary
losses pursuant to 42 U.S.C. § 12117 and Tex. Labor Code§ 21.2585(d). Plaintiff
claims entitlement to an award of back pay pursuant to 42 U.S.C. § 12117 and Tex.
Labor Code § 2 l .258(b). Further, Plaintiff claims entitlement to an award of front
pay pursuant to 42 U.S.C. § 12117 and Tex. Labor Code§ 21.258(b). Plaintiff alleges
Defendant engaged in unlawful employment practices with malice or with reckless
indifference, therefore an award of exemplary damages is appropriate. Last, Plaintiff
seeks attorney's fees and expert fees incurred as a result of filing the above-styled
and -numbered civil action, pursuant to 42 U.S.C. § 12117 and Tex.Labor Code§
21.259.
To provide insight, Plaintiff was diagnosed with Type II Diabetes in 2006 and
was later hired by Defendant in October of 2015. Plaintiff claims he was wrongfully
denied part of a raise while employed by Defendant. Plaintiff further contends he was
denied an opportunity to interview for the position of national training manager,
though he claims to have met and exceeded every requirement listed for the position.
Last, Plaintiff alleges he was forced to receive medical treatment after passing out at
work, but later received a phone call from a company employee advising him he was

73a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 604

terminated for failing to be alert at work.1 1 Among other things, Plaintiff contends
he was discriminated against and harassed as a result of his medical conditions.
Defendant now moves for summary judgment on the basis that: (1) Plaintiff
has failed to meet the conditions precedent for certain federal law claims and all state
law claims; (2) Plaintiff has failed to establish a prima facie case for disability
discrimination; (3) Plaintiffs disability harassment claim does not meet the standard
of showing a hostile work environment; ( 4) Plaintiff does not establish a claim for
failure to accommodate; (5) Plaintiffs claim for failure to engage in the interactive
process is not a separate cause of action; ( 6) Plaintiff has failed to show how his
compensatory damage claims are connected to his employment; (7) if Plaintiffs
termination is not the adverse action for the claims asserted, then his back damages
are limited; and (8) if Plaintiffs termination is not the adverse action for the claims
asserted, then Plaintiff is not entitled to front pay, compensatory damages, and/or
exemplary damages.
II.
STANDARD
Summary judgment is appropriate when "the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a

1

Plaintiff asserts he was treated for hyperglycemia, [transient global] amnesia and arthralgia of the

right ankle at a nearby hospital.

74a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 605

matter of law." Fed. R. Civ. P. 56(a); Tagore v. United States, 735 F.3d 324, 328 (5th
Cir. 2013). A material fact is one that might affect the outcome of the case under the
governing law; a dispute concerning a material fact is genuine if the evidence is such
that a reasonable jury could return a verdict for the non-moving party. Tagore, 735
F.3d at 328 (quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986))
(quotations omitted). To determine whether a genuine dispute exists such that the
case must be submitted to a jury, courts must consider all of the evidence in the light
most favorable to the non-moving party, draw all reasonable inferences in favor of
the non-moving party, refuse to make credibility determinations or weigh the relative
strength of the evidence, and disregard all evidence favorable to the movant that the
jury would not be required to believe. Haverda v. Hays County, 723 F.3d 586, 591 (5th
Cir. 2013).
If the burden at trial would be on the non-moving party, the movant must
merely demonstrate "that there is an absence of evidence to support the non-moving
party's case." Celotex Corp. v. Catrett, 477 U.S. 317, 325 (1986); Bayle v. Allstate Ins.
Co., 615 F.3d 350, 355 (5th Cir. 2010). The burden then shifts to the non-moving party
to produce evidence showing the existence of a genuine issue of material fact for trial.
Bayle, 615 F.3d at 355; Fed. R. Civ. P. 56(e). To meet this burden, the non-movant
must go beyond the pleadings and present specific facts indicating a genuine issue
for trial. Bayle, 615 F.3d at 355. "[C]onclusory statements, speculation, and
unsubstantiated assertions" are not specific facts and are not sufficient to defeat a

75a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 606

motion for summary judgment. RSR Corp. v. Int'l Ins. Co., 612 F.3d 851, 857 (5th Cir.
2010).
III.
DISCUSSION
A. Scope of Plaintiff's EEOC Charge
i. Federal Law Claims
Defendant argues that Plaintiff's EECO charge "alleges that discrimination
took place from May 23, 2016 through July 1, 2016," and therefore, summary
judgment is appropriate for "any cause of action (and any damages claim) based on
alleged actions occurring (a) before May 23 , 2016 and/or (b) after July 1, 2016." Def.'s
Mot. for Summ. J. § 17. Plaintiff counters, arguing that Defendant misrepresented
the content of the EEOC charge. Specifically, Plaintiff points to the narrative of the
EEOC charge, which provides "the disability harassment began in April 2016 ... [and
concluded] with the unlawful termination . . . in December 2016." Pl.'s Resp. to Def.'s
Mot. for Summ. J. p. 2; see also PI. 's App. 286-88. Plaintiffs viewpoint is that "[s]imply
because there was a typographical error in the boxes marked 'earliest' and ' latest'
[that error] has no effect on the scope of the charge or the investigation." Id.
"ADA and TCHRA claims are properly raised in federal court only when 'they
are within the scope of the ... investigation which can reasonably be expected to grow
out of the [administrative] charge of discrimination"' Williams v. Tarrant Cty. Coll.
Dist., 717 F. App'x 440, 445 (5th Cir. 2018), reh 'g denied (Feb. 20, 2018) (quoting

76a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 607

Robles v. Tex. Tech Univ. Health Scis. Ctr., 131 F.Supp.3d 616, 632 (W.D. Tex. Sept.
18, 2015)). The Fifth Circuit "views administrative charges in the 'broadest
reasonable sense."' Id. (quoting Sanchez v. Standard Brands, Inc., 431 F.2d 455, 467
(5th Cir. 1970). Accordingly, "[b]ecause administrative charges are rarely drawn by
an attorney, the only absolutely essential element of a timely charge of discrimination
is the allegation of fact contained therein." Id. (internal citations omitted); see also
Sanchez, 431 F.2d at 462 ("the crucial element of a charge of discrimination is the
factual statement contained therein. Everything else entered on the form is, in
essence, a mere amplification of the factual allegations.")
The Court, having reviewed Plaintiff's charge, is of the opinion Plaintiff's
typographical error in the boxes disclosing the dates of discrimination does not limit
the scope of the charge. Accordingly, to the extent Defendant's Motion for Summary
Judgment seeks to limit the scope of Plaintiff's Federal law claims, the Court is of the
opinion that the same should be DENIED.
ii. State Law Claims
Under the Texas Labor Code, a charge "must be filed not later than the 180th
day after the date the alleged unlawful employment practice occurred." Tex. Labor
Code § 21.202. A charge filed with the EEOC, more than 180 days after the occurrence
of an alleged unlawful employment practice under the Texas Commission on Human

77a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 608

Rights Act ("TCHRA"), is subject to dismissal as time-barred.2 See Adams v.
DaimlerChrysler Services NA LLC, 252 F. App'x 681, 683 (5th Cir. 2007).
Plaintiff filed his EEOC charge on January 10, 2017. Applying the limitation
imposed by the TCHRA, all state law claims arising before July 14, 2016, must be
dismissed as time-barred. Accordingly, the Court is of the opinion that all claims
arising under state law that are alleged to have occurred between April of 2016 and
July 13, 2016, should be DISMISSED as time-barred.
B. Disability Discrimination
Title II of the ADA prohibits employer discrimination of an employee who is a
"qualified individual with a disability on the basis of that disability." 42 U.S.C. §
12112(a). "In a discriminatory-termination action under the ADA, the employee may
either present direct evidence that she was discriminated against because of her
disability or alternatively proceed under the burden-shifting analysis first articulated
in McDonnell Douglas Corp. v. Green .... " E.E.O.C. v. LHC Grp., Inc., 773 F.3d 688,
694 (5th Cir. 2014). "Under the burden-shifting test established by the Supreme
Court . . . a plaintiff who .. . relies on circumstantial evidence to claim discriminatory
treatment must first establish a prima facie case of discrimination." Henderson v.
City of Dallas, No. 3: 16-CV-3317-S, 2018 WL 4326936, at *9 (N.D. Tex. Sept. 10,

2

Courts refer to Chapter 21 of the Texas Labor code as the Texas Commission on Human Rights Act.

Prairie View A &MUniv. v. Chatha, 381S.W.3d500, 502 n.l (Tex. 2012).

78a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 609

20 18) (Scholer, J.)
"To establish a prima facie discrimination claim under the ADA, a plaintiff
must prove: ( 1) that he has a disability; (2) that he was qualified for the job; [and] (3)
that he was subject to an adverse employment decision on account of his disability."3
LHC Grp. , Inc., 773 F.3d at 697; see E.E.O.C. v. Chevron Phillips Chem. Co. , 570
F.3d 606, 615 (5th Cir. 2009). In the event the plaintiff "is successful, then [the
defendant] must articulate a legitimate, nondiscriminatory reason for terminating
[the plaintiff]." Id. The burden then shifts back to the plaintiff to show that the
defendant's "proffered reason is pretextual." Id.
i. Direct Evidence
Plaintiff argues that there is direct evidence to support his claim of disability
discrimination. In this context, "[ d]irect evidence is evidence which, if believed,
proves the fact without inference or presumption." Etienne v. Spanish Lake Truck &
Casino Plaza, L.L.C., 547 F. App'x 484, 488 (5th Cir. 2013). "If an inference is required
for the evidence to be probative as to [defendant's] discriminatory animus in firing

3

"Within the Fifth Circuit, there is some disagreement about what the proper elements of [a] prima

facie case are in a disability-based termination case. However, in E.E.O.C. v. LHC Grp., Inc., the Fifth
Circuit held that it was bound to follow [the elements set forth by] Zenor v. El Paso Healthcare Sys.,
Ltd. See 773 F.3d 688, 695 (5th Cir. 2014)." Henderson v. City of Dallas, No. 3: 16-CV-3317-S, 2018
WL 4326936, at *9 (N.D. Tex. Sept. 10, 2018) (Scholer, J.)

79a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 610

[plaintiff], the evidence is circumstantial, not direct." Bennett v. Dallas Indep. Sch.
Dist., 936 F. Supp. 2d 767, 776 (N.D. Tex. 2013) (Fitzwater, J.) (quoting Sandstad v.
CB Richard Ellis, Inc., 309 F.3d 893, 897-98 (5th Cir. 2002)). The Court, having
reviewed all supporting evidence, finds that the record does not support Plaintiff's
assertion that he can establish a claim for disability discrimination through direct
evidence. Rather, the Court is of the opinion the evidence proffered fails to establish
that Defendant relied upon any forbidden factor in making the ultimate decision to
fire Plaintiff.

Accordingly, Plaintiff must "show a violation of the ADA using

circumstantial evidence [and] must satisfy the McDonnell Douglas burden-shifting
framework." Cannon v. Jacobs Field Servs. N. Am., Inc., 813 F.3d 586, 590 (5th Cir.
2016).
ii. Prima Facie Case for Disability Discrimination
The Court finds Plaintiff has not met his burden of establishing a prima facie
case for disability discrimination because he fails to adequately address the
McDonnell Douglas burden-shifting framework analysis in his response. The Court
will assume arguendo that Plaintiff adequately responded to Defendant's Motion and
will address each requirement, in turn, needed to establish a prima facie case for
disability discrimination.
a. Plaintiff's Disablity
A person is disabled under the ADA if he (1) has a physical or mental
impairment that substantially limits one or more of the major life activities, (2) has

80a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 611

a record of such impairment, or (3) is regarded as having such an impairment. 42
U.S.C. § 12102(2); see Weems v. Dallas Indep . Sch. Dist., 260 F. Supp. 3d 719, 727
(N.D. Tex. 2017) (Lindsay, J.). The record clearly indicates Plaintiff suffers from Type
II Diabetes. Additionally, it does not appear that the parties dispute such.
Accordingly, the Court will assume Plaintiff satisfies the first element of establishing
a prima facie case.
b. Qualified Individual
Plaintiff must next prove that he was qualified as it relates to his employment
position.
To determine whether a plaintiff is otherwise qualified for a given job, the court
must conduct a two-part inquiry: first, it must determine whether the plaintiff
could perform the essential functions of his job, ' i.e., functions that bear more
than a marginal relationship to the job at issue,' and second, if it finds that the
plaintiff is not able to perform the essential functions of his job, it must
determine whether any reasonable accommodation by the employer would
enable him to perform those functions."
Martinez v. Lennox Int'l, Inc., No. CIV.A.3 :96-CV-0702-G, 1997 WL 209306, at *3
(N.D. Tex. Apr. 18, 1997) (Fish, J.) (quoting Chandler v. City of Dallas, 2 F.3d 1385,

81a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 612

1393-94 (5th Cir.1993)).4 Of significance, "[t]he burden lies with [Plaintiff] to show
that he is otherwise qualified." Id.
The Court, having reviewed the parties' briefing and all evidence submitted,
finds Plaintiff was not a qualified individual under the ADA. The Court is of the
opinion, based upon the evidence proffered and the reasons set forth in Defendant's
Motion that Plaintiff, with or without reasonable accommodations, could not perform
the essential functions of his job.5 6 Further, the evidence demonstrates, that at the
time of termination, Plaintiff used insulin at work, stored insulin at work, was not
restricted from attending doctor's appointments, and did not request any further
accommodations. Def. 's Ex. D [Pl. 's Dep. App. p. 126 at 247:1-7]. In any event, "the
ADA does not insulate an employee from adverse action taken by an employer

4

Simply put, Plaintiff must show "(l) that he could perform the essential functions of the job in spite

of his disability or (2) that a reasonable accommodation of his disability would have enabled him to
perform the essential functions of the job." Gober v. Frankel Family Tr., 53 7 F. App'x 518, 521 (5th
Cir.2013).
5

"Mr. McCallister: If you are not awake at work, you can't do your job. Right? Plaintiff: Obviously,

yes." Def. 's App. 122:15-18.
6

In addition, the Court is of the opinion Plaintiff has failed to come forward with evidence showing he

is qualified because the evidence indicates that it was his own neglect in failing to monitor his diabetic
condition which resulted in his unconscious state.

82a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 613

because of misconduct in the workplace, even if his improper behavior is arguably
attributable to an impairment." Green v. Medco Health Sols. of Texas, LLC, 947 F.
Supp. 2d 712, 729 (N.D. Tex. 2013) (Boyle, J.) Accordingly, Plaintiff was not qualified
as defined under the ADA.
c. Adverse Employment Decisions
The Court, having reviewed the parties' briefing and all relevant evidence, is
of the opinion Plaintiff cannot show he was subject to an adverse employment decision
on account of a disability. The evidence proffered establishes Plaintiff was terminated
for violating Defendant's Terminable Offenses Agreement. The Agreement provides
employees may be subject to disciplinary action and/or immediate termination for
"[f]ailure to maintain alertness: sleeping . .. " Def.'s App. p. 145. Further, Plaintiff
admitted the reason he was terminated was because he was not awake at work.7
Accordingly, the Court finds Plaintiff cannot show he was subjected to an adverse
employment decision on account of a disability.
The Court, having found no direct evidence to support Plaintiffs disability
discrimination claim and having concluded Plaintiff has not carried his burden in
establishing a prima facie case, is of the opinion Defendant's Motion for Summary
Judgment should be GRANTED as it relates to the claim alleging disability

7

"Mr. McCallister: Your point is, you were unconscious at work and you got fired because you were

unconscious at work. Right?" Plaintiff: "Yes." Def.'s App. 138:14-18.

83a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 614

discrimination. In the alternative, even if Plaintiff presented a prima facie case for
disability discrimination, the Court is of the opinion Defendant has a legitimate, nondiscriminatory reason for terminating Plaintiff: failing to be alert at work.8 Moreover,
Plaintiff fails to rebut Defendant's position and establish that the reason for
termination was pretextual. To the extent Plaintiff asserts claims arising under the
Texas Labor Code for disability discrimination that have not been dismissed as timebarred, the Court GRANTS Defendant's Motion for Summary Judgment on those
remaining claims.
C. Disability Harassment
To prevail on a claim of disability-based harassment, "the plaintiff must prove:
(1) that she belongs to a protected group; (2) that she was subjected to unwelcome
harassment; (3) that the harassment complained of was based on her disability or
disabilities; (4) that the harassment complained of affected a term, condition, or
privilege of employment; and (5) that the employer knew or should have known of the
harassment and failed to take prompt, remedial action." Flowers v. S. Reg'l Physician

8

"More to the point, courts have repeatedly approved of ADA-challenged discharges for falling asleep

at work .... " Grubb v. Sw. Airlines, 296 F. App'x 383, 388 (5th Cir. 2008); see, e.g., Leonberger v. Martin
Marietta Materials, Inc., 231 F.3d 396, 399 (7th Cir.2000); Cannon v. Monsanto Co., No. 05-5558, 2008
WL 236922, at *4 (E.D. La. Jan .28, 2008) (unpublished); Brown v. Triboro Coach Corp., 153 F.Supp.2d
172, 185 (E.D.N.Y.2001).

84a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 615

Servs. Inc., 247 F.3d 229, 235-36 (5th Cir. 2001). The parties do not dispute Plaintiff
belongs to a protected group. Accordingly, the Court will assume arguendo Plaintiff
belongs to a protected group.
Plaintiff alleges he was harassed as a result of his diabetic condition. Plaintiff
argues that as a result of having diabetes, he developed eczema and dry skin which
prevented him from abiding by Defendant's policy requiring that employees maintain
clean shaven faces. Plaintiff contends that as a result of his inability to shave, he was
denied part of an employment raise. Further, Plaintiff alleges that due to a shoulder
surgery, he was prevented from following Defendant's dress code requiring that
employees tuck in their shirts. Plaintiff maintains he was subject to continuing
ridicule relating to Defendant's dress code and grooming requirements.
The Court, having reviewed the parties' briefing and all relevant evidence, is
of the opinion Plaintiffs disability harassment claim fails to meet the standards
imposed by Fifth Circuit precedent. Specifically, the Court finds Plaintiff fails to
sufficiently connect his harassment claim based upon his inability to shave with his
diabetic condition. Defendant points out that Plaintiff was "excused from the shaving
requirement [because of his] eczema and dry skin." Def.'s Ex. K, App. 160. The
medical doctor's letter excusing Plaintiff from shaving does not mention Plaintiff's
diabetes. Accordingly, any harassing conduct complained of is not based on Plaintiff's
diabetic condition. Likewise, the conduct complained of regarding Defendant's dress

85a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 616

code is based upon Plaintiff's inability to tuck in his shirt due to a shoulder surgery,
not his diabetic condition.
Accordingly, the Court GRANTS Defendant's Motion for Summary Judgment
as it relates to Plaintiff's disability harassment claims. To the extent Plaintiff asserts
claims arising under the Texas Labor Code for disability harassment that have not
been dismissed as time-barred, the Court GRANTS Defendant's Motion for
Summary Judgment on those remaining claims.
D. Failure to Accommodate
"A plaintiff must prove the following statutory elements to prevail in a failureto-accommodate claim: (1) the plaintiff is a qualified individual with a disability; (2)
the disability and its consequential limitations were known by the covered employer;
and (3) the employer failed to make reasonable accommodations for such known
limitations." Feist v. Louisiana, Dep't of Justice, Office of the Atty. Gen., 730 F.3d 450,
452 (5th Cir. 2013).
In any event, it appears Plaintiff fails to adequately respond to Defendant's
arguments relating to his claim of failure to accommodate. Further, Plaintiff fails to
pinpoint any request(s) that were not subsequently accommodated.9 Accordingly, the

9

Plaintiff's deposition transcript indicates he only sought two accommodations: ( 1) the use of a mini-

refrigerator in his office to store insulin, and (2) the ability to leave work for doctor's appointments.
Def. 's Ex. D [Pl.'s Dep. App. 104-106 at 78:12-79:22, 81 :12-18).

86a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 617

Court is of the opinion that Defendant's Motion for Summary Judgment as it relates
to Plaintiff’s claim of failure to accommodate be GRANTED. To the extent Plaintiff
asserts claims arising under the Texas Labor Code alleging failure to accommodate
that have not been dismissed as time-barred, the Court GRANTS Defendant's
Motion for Summary Judgment on those remaining claims.
E. Failure to Engage in the Interactive Process
Fifth Circuit precedent recognizes that when an employee's "disability,
resulting limitations, and necessary reasonable accommodations, are not open,
obvious, and apparent to the employer, the initial burden rests primarily upon the
employee ... to specifically identify the disability and resulting limitations, and to
suggest the reasonable accommodations." E.E.O.C. v. Chevron Phillips Chem. Co.,
LP, 570 F.3d 606, 621 (5th Cir. 2009). " [O]nce the employee presents a request for
an accommodation, the employer is required to engage in the interactive process so
that together they can determine what reasonable accommodations might be
available." Id. at 22; see Taylor v. Principal Fin. Grp., Inc., 93 F.3d 155, 165 (5th Cir.
1996) ("it is the employee's initial request for an accommodation which triggers the
employer's obligation to participate in the interactive process of determining one. If
the employee fails to request an accommodation, the employer cannot be held liable
for failing to provide one.") In the event the "employer does not engage in a good faith
interactive process, that employer violates the ADA. ... " Id. at21.

87a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 618

Defendant argues " [t]he ADA does not create a separate cause of action for
failure to engage in an interactive process." Def.'s Mot. for Summ. J. § 61.
Alternatively, if the Court recognizes such an action, Defendant argues summary
judgment is warranted pursuant to the arguments previously raised. See id. At § 62.
Plaintiffs deposition transcript provides:
Mr. McAllister: Have you ever spoken to Champion about that your
diabetes can lead to you passing out and falling asleep at work?
Clark: Like I said, I think we talked about [it] when it [came] up,
about eating some type of foods or some of the sweets they brought,
you know. Comments were made, "well if you hear a thump in my
office, come check on me."
….
Mr. McAllister: Did you ever tell Champion you needed an
accommodation because you might pass out and fall asleep at work
from diabetes?
Clark: The only accommodation I asked for was to put the refigerator,
mini-fridge in my office for the insulin.
Mr. McAllister: You never asked for an accommodation about diabetes
possibly leading to - you falling asleep, passing out at work.
Right?
Clark: No.
Mr. McAllister: You agree with me that you never did that. Right?
Clark: Yes.
Def.'s Ex. D [Pl. 's Dep. App. 125-26 at 246:6-247:7]

88a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 619

The Court, having considered the parties' briefing and all proffered evidence,
is of the opinion Plaintiff did not carry his burden "to specifically identify the
disability and resulting limitations, and suggest ... reasonable accommodations."
Chevron Phillips Chem. Co., LP, 570 F.3d at 621. Further, any accommodations
Plaintiff did request were fulfilled. Accordingly, the Court is not persuaded Defendant
failed to engage in the interactive process. Therefore, the Court GRANTS
Defendant's Motion for Summary Judgment as it relates to Plaintiffs claim alleging
failure to engage in the interactive process. To the extent Plaintiff asserts claims
arising under the Texas Labor Code for failure to engage in the interactive process
that have not been dismissed as time-barred, the Court GRANTS Defendant's
Motion for Summary Judgment on those remaining claims.
F. Retaliation
"Retaliation claims brought under the ADA are analyzed using the McDonnell
Douglas burden-shifting test. ... " First, a plaintiff must establish a prima facie case
of retaliation. Cortez v. Raytheon Co., 663 F. Supp. 2d 514, 525 (N.D. Tex. 2009)
(Kinkeade, J.) To establish a prima facie claim of retaliation, a plaintiff must show:
"(1) engagement in an activity protected by the ADA, (2) an adverse employment
action, and (3) a causal connection between the protected act and the adverse action."
Tabatchnik v. Cont'l Airlines, 262 F. App'x 674, 676 (5th Cir. 2008). "If . . . successful,
the burden shifts to [defendant] to articulate a legitimate, non-discriminatory reason
for the challenged employment action." Cortez, 663 F. Supp. at 525. "If [defendant]

89a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 620

does so, [plaintiff] must demonstrate that the proffered reason is either pretextual,
or if the proffered reason is admittedly true, that retaliatory intent also motivated
[defendant' s] ... decisions." Id. "Therefore, the ultimate issue is whether the employer
unlawfully retaliated against the employee for exercising protected activity. The
ultimate issue of retaliation requires the employee to prove that the adverse
employment action would not have occurred 'but-for' the protected activity. Sherrod
v. Am. Airlines, Inc., 132 F.3d 1112, 1122 (5th Cir. 1998).
Contrary to Defendant's position, and although Plaintiffs complaint could have
been more clearly pleaded, the Court is of the opinion Plaintiff asserts a cause of
action for retaliation.10 Plaintiff claims he was retaliated against after launching an
internal complaint against certain employees based upon harassment, thereby
leading to his subsequent termination. However, the Court is of the opinion Plaintiff
fails to assert a prima facie claim alleging retaliation.
Although Plaintiff did suffer an adverse employment action by virtue of his
termination, the Court is not persuaded Plaintiff has established a prima facie claim
for retaliation because he fails to show a causal connection between any protected act
and the adverse action. "In order to establish the causal link between the protected
conduct and the illegal employment action as required by the prima facie case, the
evidence must show that the employer's decision to terminate was based in part on

10

In the alternative, Defendant argues Plaintiff fails to assert a prima facie claim alleging retaliation.

90a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 621

knowledge of the employee's protected activity." Sherrod v. Am. Airlines, Inc., 132
F.3d 1112, 1122 (5th Cir. 1998). The Court, having considered the parties' briefing
and all relevant evidence is of the opinion Plaintiff fails to establish Defendant's
decision to terminate Plaintiff was based upon Defendant's knowledge of any
protected activity.
In the alternative, even if Plaintiff were to establish a prima facie claim for
retaliation, Defendant has already asserted a legitimate, non-discriminatory reason
for the challenged employment action in that Plaintiff was terminated for failing to
be alert at work.11 Further, the Court finds Plaintiff has failed to satisfy his burden
of demonstrating that the proffered reason for termination was pretextual.
Ultimately, Plaintiff has not proven "that the adverse employment action would not
have occurred 'but-for' the protected activity." Sherrod v. Am. Airlines, Inc., 132 F.3d
1112, 1122 (5th Cir. 1998). Accordingly, the Court hereby GRANTS Defendant's
Motion for Summary Judgment on Plaintiff's claim alleging retaliation under both
the ADA and the Texas Labor Code.
G. Damages
The Court, having granted Defendant's Motion for Summary Judgment as it
relates Plaintiffs claims alleging disability discrimination, disability harassment,

11

See supra note 6.

91a

Case 3:17-cv-01802-C Document 16 Filed 11/14/18

PageID 622

failure to accommodate, retaliation, and failure to engage in the interactive process,
pursuant to the ADA and Texas Labor Code, hereby DENIES Plaintiffs request for
compensatory damages. The Court further DENIES Plaintiffs request for back pay,
front pay, exemplary damages, attorney's fees and expert fees.
IV.
CONCLUSION
For the foregoing reasons, Defendants' Motion for Summary Judgment is
GRANTED. Specifically, the Motion is GRANTED as it relates to Plaintiffs claims
alleging disability discrimination, disability harassment, failure to accommodate,
retaliation, and failure to engage in the interactive process arising under both the
ADA and Texas Labor Code. Any other relief sought by Plaintiff is hereby DENIED.
Further, the Court's trial setting of January 7, 2019, is hereby VACATED.
SO ORDERED this 14th day of November, 2018.
s/SAM R. CUMMINGS
SAM R. CUMMINGS
SENIOR UNITED STATES DISTRICT JUDGE

92a

